RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 21-312
VOLKSWAGEN AKTIENGESELLSCHAFT, ET AL.,
Petitioner,
v.
STATE OF OHIO EX REL. DAVE YOST, ATTORNEY GENERAL,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Carter G. Phillips, certify that
the Brief Amici Curiae of International Organization of Motor Vehicle
Manufacturers, European Automobile Manufacturers’ Association, and European
Association of Automotive Suppliers in Support of Petitioners in the foregoing case
contains 5,717 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 30, 2021.
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

